No. 20-1088

 

Iu The
Supreme Court of the United States

 

DAVID AND AMY CARSON, AS PARENTS AND NEXT FRIENDS OF O.C., ET AL.,
. . ‘ Petitioners,
v.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS COMMISSIONER OF THE MAINE
DEPARTMENT OF EDUCATION, Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 33.1(h), hereby certifies that the Amicus Brief of The American Center for Law and Justice
in Support of Petitioners complies with the pertinent word limitations. The body of the
document, including footnotes (but exclusive of all material preceding the Interest of Amicus and
all material following the last word of the text of the conclusion), contains 2,889 words.

 

April 7, 2021
